No. 19-102
IN THE SUPREME COURT OF THE UNITED STATES
LEROY BACA, PETITIONER
V.

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 4th day of December 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 8,841 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 4, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-000 1
(202) 514-2217
December 4, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0 102
BACA, LEROY
USA

BENJAMIN L. COLEMAN
COLEMAN & BALOGH LLP
1350 COLUMBIA STREET
STE. 600
SAN DIEGO, CA 92101
6 19-794-0420
BLC@COLEMANBALOGH.COM

